HHS/OIG, Audit -"2004 Adjusted Community Rate Proposal Modifications Submitted
As a Result of the Medicare Prescription Drug, Improvement, and Modernization Act,"(A-04-05-06008)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"2004 Adjusted Community Rate Proposal Modifications
Submitted As a Result of the Medicare Prescription Drug, Improvement, and Modernization Act," (A-04-05-06008)
December 21, 2005
Complete
Text of Report is available in PDF format (567 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review
was to determine whether Vista Healthplan of South Florida, Inc.s (Vistas) use of its
Medicare Prescription Drug, Improvement, and Modernization Act (MMA) payment increase was
adequately supported and allowable.  Vista submitted a revised proposal for contract
year 2004 that reflected an increase of $10.7 million in Medicare capitation payments that
were provided by the MMA legislation.  Vista appropriately used the MMA payment increase
to stabilize and enhance beneficiary access to providers through increased provider payments.  The
increased payments resulted when Vista revised many provider contracts to include higher
compensation percentages.  Vistas increased provider payments were adequately supported
and allowable.  Therefore, we did not make any recommendations.